                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
 Odessa R-VII School District
       Odessa, Missouri




                       Report No. 27010-19-KC
                                February 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL - AUDIT
                                          Great Plains Region
                                     8930 Ward Parkway, Suite 3016
                                    Kansas City, Missouri 64114-3302
                                  TEL: 816.926.7667 FAX: 816.926.7676




DATE:         February 18, 2004

REPLY TO
ATTN OF:      27010-19-KC

SUBJECT:      National School Lunch Program – Odessa R-VII School District, Odessa, Missouri

TO:           Darlene Barnes
              Regional Administrator
              Food and Nutrition Service
              1244 Speer Boulevard, Suite 903
              Denver, CO 80204


This report presents the results of the subject audit.          Your written response, dated
February 5, 2004, to the official draft report has been incorporated into the Findings and
Recommendations section of the report, where appropriate. The text of the response is attached
as exhibit C. Your reply expressed agreement with the recommendations; however, we were
unable to reach management decisions on the recommendations.                The Findings and
Recommendations section of the report explains those actions necessary for us to consider
management decisions on Recommendations Nos. 1, 2, 3, and 4. In general, we will need to be
advised of the specific actions completed or planned along with acceptable and specific dates for
completing the recommended actions. In addition, the claim amounts determined to be improper
must be recovered or an accounts receivable established.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken, or planned, and the timeframes for accomplishing final
action. Please note that the regulation requires management decisions to be reached on all
findings and recommendations within 6 months from the date of report issuance, and final action
should be completed within 1 year of management decision.

We appreciate the assistance provided to us during our review.


/s/

DENNIS J. GANNON
Regional Inspector General
 for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Odessa, Missouri
(Audit Report No. 27010-19-KC)

Results in Brief               This report presents the results of our audit of the National School Lunch
                               Program (NSLP)1 as operated by Odessa R-VII School District. This district
                               served as the local school food authority (SFA) under an agreement with the
                               Missouri Department of Elementary and Secondary Education, which served
                               as the State agency. The United States Department of Agriculture’s (USDA)
                               Food and Nutrition Service (FNS) served as the funding agency. For school
                               year 2001/2002 operations, the SFA claimed about $229,000 in FNS
                               NSLP/SBP reimbursement and about $5,800 in State agency reimbursement.

                               Our objectives were to evaluate the SFA’s meal accountability, procurement,
                               accounting systems, and management controls that were designed to provide
                               reasonable assurance as to the accuracy of its meal claims and reimbursement
                               for school years 2001/2002 and 2002/2003 through December 31, 2002.

                               We found the SFA had not effectively monitored meal accountability
                               procedures for the meals claimed for the children participating in the daycare
                               program.     As a result, the SFA received about $1,200 in Federal
                               reimbursement funds for excess meals. The SFA did not have procedures in
                               place to ensure the food service program received proper credit for
                               USDA-donated commodities. The SFA’s accounting procedures did not
                               include crediting a pro rata share of interest earned from investments to the
                               food service account.

Recommendations
In Brief                       We recommend that FNS instruct the State agency to require the SFA to
                               (1) establish procedures and monitor meal claims to ensure only eligible meals
                               are reported for reimbursement, (2) correct the overclaim, (3) perform
                               beginning and ending inventory counts and reconciliations to ensure the SFA
                               receives proper credit for donated commodities used by the Food Service
                               Management Company (FSMC), and (4) establish procedures to credit the
                               school food service account with a prorated share of the investment income.

FNS Response                   Although the agency response showed FNS officials concurred with the
                               recommendations, it did not provide sufficient information to reach
                               management decisions on any of the recommendations. We incorporated
                               their comments in the applicable sections of the report and attached a copy of
                               the comments as exhibit C.



1
    Also includes the School Breakfast Program (SBP).
USDA/OIG-A/27010-19-KC                                                                                Page i
OIG Position       The Findings and Recommendations section of the report explains those
                   actions necessary for us to consider management decisions on
                   Recommendations Nos. 1, 2, 3, and 4. In order to reach management
                   decisions, we will need to be advised of the specific actions completed or
                   planned along with acceptable dates for completing the contemplated actions
                   and evidence of actions taken to recover the improper claims.




USDA/OIG-A/27010-19-KC                                                                 Page ii
Abbreviations Used in This Report


the Act             Richard B. Russell National School Lunch Act
CFR                 Code of Federal Regulations
FNS                 Food and Nutrition Service
FSMC                Food Service Management Company
NSLP                National School Lunch Program
OIG                 Office of Inspector General
POS                 Point of Service
RFP                 Requests for Proposal
SBP                 School Breakfast Program
SFA                 School Food Authority
USDA                United States Department of Agriculture




USDA/OIG-A/27010-19-KC                                             Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Internal Controls Over the NSLP/SBP.......................................................................... 3

        Finding 1             Internal Controls Needed to be Strengthened.......................................................... 3
                                   Recommendation No. 1.................................................................................... 5
                                   Recommendation No. 2.................................................................................... 6
                                   Recommendation No. 3.................................................................................... 6
        Finding 2             Procedures Were Not in Effect to Prorate Investment Income to the Food
                              Service Fund............................................................................................................ 6
                                   Recommendation No. 4.................................................................................... 7

Scope and Methodology.......................................................................................................................... 8

Exhibit A – Summary of Monetary Results ....................................................................................... 10
Exhibit B – Reconciliation of Daycare Meals ..................................................................................... 11
Exhibit C – FNS Reply to Official Draft............................................................................................. 12




USDA/OIG-A/27010-19-KC                                                                                                                       Page iv
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,2 now the
                         Richard B. Russell National School Lunch Act (the Act), which authorizes
                         Federal school lunch assistance. The intent of the Act, as amended
                         December 29, 2001, is to safeguard the health and well-being of the Nation’s
                         children by providing them with nutritious foods and to encourage the
                         domestic consumption of nutritious agricultural commodities and other foods.
                         This is accomplished by assisting States, through grants-in-aid and other
                         means, in providing an adequate supply of food and facilities for the
                         establishment, maintenance, operation, and expansion of nonprofit school
                         lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States based upon the number and category of lunches
                         served. Section 4 of the Act authorizes general cash assistance payment for
                         all lunches served to children in accordance with the provisions of the
                         National School Lunch Program (NSLP) and additional special cash
                         assistance for lunches served under the NSLP to children determined eligible
                         for free or reduced-price lunches. The States are reimbursed at various rates
                         per lunch, depending on whether the child was served a free, reduced-price,
                         or full-price (paid) lunch. Eligibility of children for free or reduced-price
                         lunches is based upon their family’s household size and income, as listed in
                         the Food and Nutrition Service (FNS) Income Eligibility Guidelines, which
                         are reviewed annually.

                         FNS is the United States Department of Agriculture (USDA) agency
                         responsible for administering the NSLP/School Breakfast Program (SBP).
                         FNS is headquartered in Alexandria, Virginia, and has seven regional offices
                         nationwide. The FNS Mountain Plains Regional Office, located in Denver,
                         Colorado, is responsible for monitoring and overseeing operations in
                         Missouri.    The Missouri Department of Elementary and Secondary
                         Education, Division of Administrative and Financial Services – School
                         Foods, serves as the State agency and is responsible for overseeing program
                         operations within Missouri. The School Food Authority (SFA) located in
                         Odessa, Missouri, is responsible for operating the NSLP in accordance with
                         regulations. Each State agency is required to enter into a written agreement
                         with FNS to administer the NSLP/SBP, and each State agency enters into
                         agreements with SFAs to oversee day-to-day operations. The SFA
                         administered the NSLP/SBP in four public schools and operated a daycare
                         program at one of the schools. The SFA contracted with a commercial Food
                         Service Management Company (FSMC) to prepare the meals.


2
    42 U.S. Code 1751.
USDA/OIG-A/27010-19-KC                                                                         Page 1
                   The fiscal year 2002 funding for the NSLP was $6 billion for meal
                   reimbursements of approximately 4.7 billion lunches. The Missouri State
                   agency received approximately $104.5 million for the NSLP, $28.7 million
                   for the SBP, $1 million for the after school snack program, and $400,000 for
                   the special milk program in Federal reimbursements for school year
                   2001/2002. For school year 2001/2002, Missouri provided State funds of
                   approximately $2.3 million to SFAs. For school year 2001/2002 operations,
                   the SFA received about $229,000 in FNS NSLP/SBP reimbursement and
                   about $5,800 in State agency reimbursement.

                   The general NSLP requirements are codified in Title 7, Code of Federal
                   Regulations (CFR) 210. Requirements for determining eligibility for free and
                   reduced-price meals and free milk are codified in 7 CFR 245. In accordance
                   with 7 CFR 250, USDA also provides donated foods to SFAs to assist in
                   operating the nonprofit lunch program. The Missouri State agency provides
                   actual commodities to each public school participating in the NSLP/SBP,
                   with the exception of one district. Generally, schools must collect
                   applications on an annual basis from households of enrolled children and
                   make annual determinations of their eligibility for free or reduced-price
                   meals. These schools must also count the number of free, reduced-price, and
                   paid meals served at the point of service (POS) on a daily basis.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP and SBP. We evaluated policies and procedures
                   over meal accountability and oversight of program operation. To accomplish
                   this, we evaluated (1) the accuracy of collections and accounting for
                   reimbursed meals, (2) the accounting and use of program funds relating to the
                   SFA’s procurement of goods and services, and (3) the accounting for the
                   SFA’s school food service account.




USDA/OIG-A/27010-19-KC                                                                   Page 2
Findings and Recommendations
Section 1. Internal Controls Over the NSLP/SBP

Finding 1                   Internal Controls Needed to be Strengthened

                            The SFA claimed Federal reimbursement for excess meals served to children
                            participating in the daycare program. This occurred because SFA officials did
                            not perform a POS3 count for the meals obtained for the daycare children. As
                            a result, the SFA collected about $1,200 in Federal reimbursement funds for
                            meals not eligible for reimbursement during the 2001/2002 and 2002/2003
                            school years. In addition, the SFA lacked adequate internal controls to
                            ensure the FSMC properly credited the food service program for the value of
                            USDA-donated commodities. This occurred because the SFA allowed the
                            FSMC to perform the beginning and ending inventories and determine the
                            credits without performing oversight or independent reconciliations.

                            a. Excess Meals Claimed for Federal Reimbursement.

                                The SFA claimed reimbursement for excess meals served to children
                                participating in the daycare program. This occurred because SFA officials
                                did not perform a POS count for daycare program meals obtained at the
                                McQuerry Elementary School. Further, SFA officials did not monitor the
                                claims for reimbursement for the daycare children at any point in the
                                claims process. As a result, the SFA received about $1,200 in Federal
                                reimbursements for the questionable meals claimed during the 2001/2002
                                and 2002/2003 school years.

                                Federal regulations require the SFA to ensure that Claims for
                                Reimbursement do not request payment for any excess lunches produced,
                                or non-Program lunches (i.e., a la carte or adult lunches), or for more than
                                one meal supplement per child per day.4 Federal regulations state SFAs
                                should plan and prepare breakfasts on the basis of participation trends,
                                with the objective of providing one breakfast per child per day.5 Federal
                                regulations state the State agency may authorize alternatives to the POS
                                lunch counts provided that such alternatives result in accurate, reliable
                                counts of the number of free, reduced-price, and paid lunches served,
                                respectively, for each serving day.6




3
  The POS is defined as the point in the food service operation where a determination can accurately be made that a
reimbursable free, reduced-price, or paid lunch has been served to an eligible child.
4
  7 CFR 210.7(c)(1)(ii)(B)(v).
5
  7 CFR 220.9(a).
6
  7 CFR 210.7(c)(2)(i).
USDA/OIG-A/27010-19-KC                                                                                     Page 3
                                   SFA officials did not include a review of the meals served at the daycare
                                   during the required onsite review, and there were no other internal
                                   controls in place for verifying the number of meals actually served to the
                                   daycare children. Normally, the daycare ordered meals from the FSMC
                                   and picked up the meals at the elementary school. Daycare personnel
                                   said that additional meals were ordered and combined into a family-style
                                   serving. The meal counts were based on meals ordered rather than
                                   eligible children actually in attendance and eating. We found that the
                                   SFA did not use a POS count or monitor the meals ordered by the daycare
                                   to ensure that only one meal per eligible child in attendance was ordered
                                   and claimed for reimbursement.

                                   The SFA did not plan and prepare breakfasts on the basis of participation
                                   trends, in that daycare personnel ordered more meals per day than actual
                                   students who were enrolled in the daycare program. For example, during
                                   the month of April 2002, 34 eligible students were enrolled in the daycare
                                   program. During this month, 39 meals were ordered every day for
                                   breakfast and lunch, with an excess of at least 5 breakfasts and 5 lunches
                                   ordered per day. In some cases, meals were ordered and claimed for
                                   students with an established practice of arriving after breakfast was
                                   served or leaving before lunch was served. We obtained documentation
                                   of attendance (by name) for the audit period to determine how many
                                   meals were served to eligible children in attendance at the daycare. We
                                   questioned about $1,200 in Federal reimbursement funds for meals not
                                   supported by attendance records (see exhibits A and B). Our questioned
                                   costs include all breakfasts claimed which exceeded the actual attendance
                                   of eligible students because the daycare consistently ordered more
                                   breakfasts than there were eligible students expected to eat.7

                              b. The SFA Did Not Monitor Credits for USDA-Donated Commodities.

                                   The SFA did not follow or monitor contract stipulations related to use of
                                   donated commodities used by the FSMC. The SFA had no procedures in
                                   place to conduct physical inventories of commodities or perform
                                   independent reconciliations to verify that it received proper credit for the
                                   commodities. As a result, the SFA was not following the terms of the
                                   amended contract8 (which had been approved by the State agency) and
                                   was relying solely on the FSMC to determine the amount of the credit for
                                   commodities with an estimated value of $49,000 received during the year.

7
  The Agency noted that SFAs are to plan for and prepare breakfasts on the basis of participation trends, with the objective
of providing one breakfast per child per day. Further, any excess breakfasts that are prepared may be served to eligible
children and may be claimed for reimbursement.
8
  A contract addendum, dated August 5, 2002, provided that a yearend reconciliation shall be conducted by the SFA to
ensure and verify that the correct and proper credit has been received for the full value of all USDA-donated foods used by
the FSMC. The addendum also provided for the SFA to conduct annual reviews of storage facilities, including a physical
inventory reconciled with the inventory records maintained by the SFA and FSMC.
USDA/OIG-A/27010-19-KC                                                                                             Page 4
                             We did not review activities prior to the 2002/2003 school year because
                             this issue was reported in Audit Report No. 27601-12-KC issued in
                             May 2001.

                             Federal regulations require that the SFA shall ensure that all
                             federally-donated foods received by the SFA and made available to the
                             FSMC accrue only to the benefit of the SFA’s nonprofit school food
                             service and are fully utilized therein.9 Federal regulations require that the
                             contract between the SFA and FSMC shall expressly provide that any
                             donated foods received by the SFA and made available to the FSMC shall
                             be utilized solely for the purpose of providing benefits for the SFA’s food
                             service operation, and it shall be the responsibility of the SFA to
                             demonstrate that the full value of all donated foods is used solely for the
                             benefit of the SFA.10 Federal regulations require grantees and subgrantees
                             to maintain a contract administration system which ensures that contractors
                             perform in accordance with the terms, conditions, and specifications of their
                             contracts or purchase orders.11

                             It is the SFA’s responsibility to perform a reconciliation of the inventory
                             counts and have documentation of resolution of any discrepancies. Our
                             analysis of available records for the value of donated commodities
                             compared to the credit given to the SFA was inconclusive, due to the lack of
                             documentation and independent inventory counts.

Recommendation No. 1

                          Instruct the State agency to require the SFA to correct the overclaim for the
                          daycare meals that were ineligible for reimbursement.

                          FNS Response.

                          FNS concurred with Recommendation No. 1.

                          OIG Position.

                          In order to consider management decision, we need to be notified of the
                          proposed dates when the recommended actions to be taken by the SFA will
                          be completed and provided evidence the improper costs have been recovered
                          or established as an accounts receivable.




9
  7 CFR 210.16(a)(6).
10
   7 CFR 250.12(d).
11
   7 CFR 3016.36(b)(2).
USDA/OIG-A/27010-19-KC                                                                            Page 5
Recommendation No. 2

                   Instruct the State agency to provide instructions to the SFA on requirements and
                   actions to be taken to establish a POS or appropriate alternative POS at the
                   daycare meal-serving site. Instruct the State agency to require the SFA to
                   include the daycare meal-serving site as part of the onsite reviews to ensure that
                   reimbursement is not claimed for ineligible meals.

                   FNS Response.

                   FNS concurred with Recommendation No. 2.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed.

Recommendation No. 3

                   Instruct the State agency to require the SFA to perform independent
                   beginning and ending commodity inventory counts. Require the SFA to
                   reconcile the beginning and ending commodity inventory counts with the
                   FSMC and State agency inventory records and to ensure proper credits have
                   been received from the FSMC. Instruct the State agency to require the SFA
                   to restore any deficiencies in commodity credits for the 2002/2003 school
                   year to the food service account, dependent on available records.

                   FNS Response.

                   FNS concurred with Recommendation No. 3.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and provided evidence of the recovered costs for the
                   unaccounted commodities.

Finding 2          Procedures Were Not in Effect to Prorate Investment Income to
                   the Food Service Fund

                   The school food service account was not being credited a prorated share of
                   interest earned from investments. According to SFA officials, this occurred
                   because the State agency did not provide instructions to the SFA to allocate
                   investment income to the school food service account. As a result, the funds
USDA/OIG-A/27010-19-KC                                                                       Page 6
                              received for the benefit of the school lunch program are creating revenue
                              (interest income) from balances maintained in the food service fund, but such
                              revenue is not reflected in the food service accounts.

                              Federal regulations12 require that a prorated share of interest earned from
                              investments should be credited to the school food service account.

                              We noted the district’s general fund checking account earned monthly
                              interest rates ranging from 2.02 percent to 2.53 percent. Also, a money
                              market checking account yielded 2.00 percent interest. The closing cash
                              balance for the school food service fund for school year 2001/2002 was
                              $188,574, which would have earned monthly interest of $314 using a
                              2.00 percent rate. SFA officials stated the school district did not transfer
                              general funds to the food service program; however, the district did not
                              charge the food service program for indirect costs (i.e., gas, electric, trash
                              service, etc.). Therefore, we did not determine the questioned costs for the
                              interest income attributable to the food service fund. However, we believe
                              the district should have procedures in place to credit the school food service
                              fund for its share of the investment income.

Recommendation No. 4

                              Instruct the State agency to require the SFA to establish procedures to credit
                              the school food service account with a pro rata share of the school district’s
                              investment income.

                              FNS Response.

                              FNS concurred with Recommendation No. 4.

                              OIG Position.

                              In order to consider management decision, we need to be notified of the
                              proposed dates when the recommended actions to be taken by the SFA will
                              be completed.




12
  The Federal regulation’s definition of revenue shows that a prorated share of interest earned from investments should be
credited to the school food service’s account (7 CFR 210.2).
USDA/OIG-A/27010-19-KC                                                                                            Page 7
Scope and Methodology
                   Our review primarily covered NSLP/SBP operations July 1, 2001, to
                   May 31, 2003, concentrating on operations since July 1, 2002. However,
                   records for other periods were reviewed, as deemed necessary. We
                   performed audit work at the FNS Regional office and the SFA in Odessa,
                   Missouri. We selected Odessa R-VII School District based on its location
                   and because the SFA used an FSMC. Fieldwork was performed during the
                   period May through July 2003.

                   In school years 2001/2002 and 2002/2003 there were two elementary schools,
                   a daycare within the elementary school, one middle school, and one high
                   school. We reviewed NSLP/SBP claims at all four schools and the daycare
                   and made observations at each elementary school, the daycare, the middle
                   school, and the high school. Our audit was performed in accordance with
                   Government Auditing Standards.

                   To accomplish our review objectives, we reviewed FNS, State agency, and
                   SFA regulations, policies, procedures, manuals, and instructions governing
                   NSLP/SBP operations. We also reviewed the State agency’s most recent
                   administrative review of the SFA’s NSLP/SBP operations and the SFA’s
                   corrective actions taken in response to the administrative review findings and
                   recommendations. The following audit procedures were also performed:

                   •     Interviewed officials from the State agency, SFA, and FSMC, in order to
                         obtain an overview of their method of operation for the NSLP/SBP;

                   •     Evaluated the SFA’s procedures used to gather and consolidate monthly
                         meal claims and whether reports are verified for accuracy;

                   •     Evaluated edit check controls used to assure the reasonableness of claims
                         for reimbursement when daily meal counts, by category, exceeded
                         average daily attendance;

                   •     Reviewed the SFA’s accounting system, which included a review of
                         program funds and interest on those funds;

                   •     Analyzed the monitoring efforts of the SFA through a review of the
                         onsite accountability reviews conducted during school years 2001/2002
                         and 2002/2003;

                   •     Reviewed the SFA’s procedures for issuing Requests for Proposal (RFP)
                         and contracts with the FSMC to operate the nonprofit food service;


USDA/OIG-A/27010-19-KC                                                                     Page 8
                   •     Reviewed the most recent RFP/contract and addendum with the FSMC,
                         including the credit given for commodities;

                   •     Compared the number of meals claimed (for the audit period) by the SFA
                         to the State agency to the number of meals billed by the FSMC on their
                         monthly invoices; and

                   •     Compared the amount of commodities used by the FSMC to the amount
                         of credit given to the SFA for commodities.




USDA/OIG-A/27010-19-KC                                                                  Page 9
Exhibit A – Summary of Monetary Results
                                                                 Exhibit A – Page 1 of 1


  Finding No.                 Description            Amount           Category
       1         SFA Overclaimed Meals for Daycare      $1,209           1/


1/ Unsupported Costs, Recovery Recommended.




USDA/OIG-A/27010-19-KC                                                        Page 10
Exhibit B – Reconciliation of Daycare Meals
                                                                           Exhibit B – Page 1 of 1


                            Daycare Overclaimed Reimbursements
2001/2002     Meals Claimed for  Actual      Difference in   Meal Rate   Total*
School Year   Reimbursement      Attendance Attendance and               (Difference times
                                             Claimed                     Rate)
Lunch         6,660              4,094       2,566                 $0.20               $513
Breakfast     6,549              3,982       2,567                 $0.21               $539
                                                                                     $1052
2002/2003
School Year
Lunch         2,042              1,257         785                 $0.20                    $157
                                         Total Overclaimed Reimbursement                  $1,209

*Rounded.




USDA/OIG-A/27010-19-KC                                                                  Page 11
Exhibit C – FNS Reply to Official Draft
                                          Exhibit C – Page 1 of 1




USDA/OIG-A/27010-19-KC                                Page 12
